          United States Government
   National Labor Relations Board
            Office of Inspector General




SEMIANNUAL

REPORT
october 1, 2010 – march 31, 2011




                  NLRB Semiannual report   1
TABLE OF
contents
Executive Summary..........................................................................1

Agency Profile...................................................................................2

Office of Inspector General...........................................................4

Audit Program...................................................................................5

Investigation Program................................................................... 10

Legislation, Regulations and Policy............................................. 12

Liaison Activities............................................................................ 13

Information Required by the Act................................................ 14

Audit Reports by Subject Matter................................................. 15

Appendix......................................................................................... 18
EXECUTIVE
SUMMARY

I
     hereby submit this Semiannual Report for the period October 1, 2010
     – March 31, 2011. This report summarizes the major activities and
     accomplishments of the Office of Inspector General of the National
Labor Relations Board and its submission is in accordance with the Inspector
General Act of 1978, as amended. Section 5 of the Inspector General Act
requires that the Chairman transmit this report to the appropriate committees
or subcommittees of the Congress within 30 days of its receipt.
In the audit program, the Office of Inspector General issued two audit
reports and two inspection reports; completed the annual review required
by the Federal Information Security Management Act of 2002; and provided
the annual list of the top management and performance challenges to the
Chairman. As a result of the audits, we identified $1,042,603 in questioned
costs and recommended that the Agency put $915,374 to better use. In
the investigation program, the Office of Inspector General processed 147
contacts, initiated 3 cases, and closed 3 cases. Our investigative efforts
resulted in counseling for four employees and notification to two employees
of proposed disciplinary action. Details on these accomplishments can be
found in the body of this report.
I appreciate the support of all Agency employees in achieving the
accomplishments set forth in this report.




                                            David Berry
                                            Inspector General
                                            April 29, 2011




                                             NLRB Semiannual report           1
AGENCY
profile
    The National Labor Relations Board (NLRB or Agency) is an independent
    Federal agency established in 1935 to administer the National Labor
    Relations Act. The National Labor Relations Act is the principal labor relations
    law of the United States, and its provisions generally apply to private sector
    enterprises engaged in, or to activities affecting, interstate commerce.
    NLRB jurisdiction includes the U.S. Postal Service (other government entities,
    railroads, and airlines are not within NLRB’s jurisdiction).


The NLRB seeks to serve the public
interest by reducing interruptions
in commerce caused by industrial
strife. It does this by providing
orderly processes for protecting
and implementing the respective
rights of employees, employers,
and unions in their relations with
one another. The NLRB has two
principal functions: (1) to determine
and implement, through secret ballot
elections, the free democratic choice
by employees as to whether they                judicial body in deciding cases
wish to be represented by a union              on formal records. The General
in dealing with their employers and,           Counsel investigates and prosecutes
if so, by which union; and (2) to              unfair labor practices before
prevent and remedy unlawful acts,              administrative law judges, whose
called unfair labor practices, by              decisions may be appealed to the
either employers or unions.                    Board; and, on behalf of the Board,
NLRB authority is divided by law               conducts secret ballot elections to
and delegation. The five-member                determine whether employees wish
Board primarily acts as a quasi-               to be represented by a union.

2    NLRB Semiannual report
                                                                      Left to right:
                                                         Brian Hayes, Craig Becker,
                                                       Chairman Wilma B. Liebman,
                                                              Mark Gaston Pearce.




The Board consists of the Chairman     of Continuing Resolutions that
and four Members who are               provided funding at the Fiscal Year
appointed by the President with the    (FY) 2010 appropriation level of
advice and consent of the Senate.      $283,400,000.
Board Members serve staggered          NLRB Headquarters is located at
terms of 5 years each. The General     1099 14th Street, NW, Washington,
Counsel is also appointed by the       DC. In addition to the Headquarters
President with the advice and          building, employees are located
consent of the Senate and serves       in 51 field offices throughout the
a term of 4 years.                     country. Three satellite offices for
For this reporting period, the Board   the administrative law judges are
consisted of Chairman Wilma B.         located in Atlanta, San Francisco,
Liebman and Members Craig Becker,      and New York City. Since October
Brian Hayes, and Mark Gaston           2, 2000, field offices have included
Pearce. On January 5, 2011, the        32 Regional Offices, 16 Resident
President nominated Lafe Solomon       Offices, and 3 Subregional Offices.
to be the General Counsel. Mr.         Additional information about
Solomon continued to serve as          the NLRB can be found at
Acting General Counsel during          www.NLRB.gov.
the reporting period.
During this reporting period, the
NLRB operated under a series

                                           NLRB Semiannual report                      3
OFFICE OF
INSPECTOR GENERAL
    NLRB established the Office of Inspector General (OIG) pursuant to the
    1988 amendments to the Inspector General Act of 1978 (IG Act).



Resources
Because the NLRB operated under
a series of Continuing Resolutions
for the entire reporting period, the
OIG did not receive an allocation
of funds for FY 2011 operations.
During that time, however, the
OIG did receive sufficient funds,
as needed, to maintain its programs.
In addition to the Inspector General,
the OIG consists of a Counsel/
Assistant Inspector General
for Investigations, an Assistant
Inspector General for Audits, three
auditors, and a staff assistant. At
this time, the Counsel/Assistant
Inspector General for Investigations
position is vacant.




4    NLRB Semiannual report
AUDIT
program
   The Inspector General is to provide policy direction for and is to conduct,
   supervise, and coordinate audits relating to program operations of the
   Agency. During the reporting period, the OIG issued two audit reports
   and two inspection reports; completed the annual review required
   by the Federal Information Security Management Act of 2002; and
   provided the annual list of the top management and performance
   challenges to the Chairman. As a result of the audits, we identified
   $1,042,603 in questioned costs and recommended that the Agency put
   $915,374 to better use.



We issued Audit Report OIG-F-              A Management Letter, issued as
15-11-01, Audit of the NLRB Fiscal         part of the financial statement
Year 2010 Financial Statements,            audit process, also addressed this
on December 15, 2010. The audit,           significant deficiency and detailed
performed by an independent                the violations that evidenced the
public accounting firm, found that         significant deficiency. The following
the NLRB’s FY 2010 Financial               instances of noncompliance with
Statements were fairly stated, and no      laws and regulations were identified:
material weaknesses in controls over       •T
                                             he Agency did not adhere to
financial reporting were identified.        the recording statute and the bona
Although no material weaknesses             fide needs rule when the Office of
were identified, a significant              Employee Development obligated
deficiency involving internal controls      $39,000 in FY 2010 funds for the
was found, as evidenced by the              costs related to two participants’
combination of deficiencies to be           attendance at training at the
in compliance with laws related to          Federal Executive Institute in
the Antideficiency Act, the bona fide       January 2011.
needs rule, the recording statute,
and the lack of a system to prevent        • The Agency did not adhere to
or detect the violations.                     the recording statute and the bona


                                                NLRB Semiannual report             5
    fide needs rule when it recorded      was operated in accordance with
    obligations in the amount of          applicable laws, regulations, and
    $876,374 for 36 contracts for court   Agency policies and whether
    reporting services on September       controls are sufficient to prevent
    28 and 29, 2010.                      or detect waste, fraud, and abuse.
• The Agency violated the                We generally found that the NLRB’s
   Antideficiency Act when the            travel card program did not meet
   Office of Equal Employment             the requirements of the Office of
   Opportunity purchased food             Management and Budget. This is
   as meals for employees.                largely due to the fact in FY 2010
• The Agency violated the                the Finance Branch did not have a
   Antideficiency Act when the            travel card management plan. After
   Acquisitions Management Branch         the audit field work was completed,
   entered into a prohibited personal     the Finance Branch submitted a travel
   services contract.                     card management plan to the Office
                                          of Management and Budget.
The Management Letter contained
recommendations to address the            We also found that the Finance
significant deficiency in internal        Branch is adequately monitoring
controls and the instances of             employee travel card use and is
noncompliance with laws and               generally checking creditworthiness
regulations.                              when it is setting travel cards limits.

In their comments to the                  We identified aspects of the
Management Letter, the Chairman           travel card program that could be
and Acting General Counsel                improved, including travel card
stated that they are committed to         training, procedures to cancel cards
making changes as are necessary           when employees leave the Agency,
or appropriate to ensure a properly       and ensuring that employees use
controlled financial environment.         their travel cards when they are on
                                          official travel. We also identified
The two matters involving the bona        464 transactions that appear to be
fide needs rule were referred to the      improper because the employee
U.S. Government Accountability            was not in a travel status and 41
Office for a Comptroller General          transactions that appear to be
Decision.                                 unrelated to official travel that
We issued Audit Report OIG-               occurred while the employee was
AMR-66-11-01, Travel Cards,               in a travel status. We found 29
on March 23, 2011. This audit was         cash advances that appear to be
conducted to determine whether            unrelated to official travel. All of
the NLRB’s travel card program            the questionable transactions that


6     NLRB Semiannual report
we identified will be reviewed for      The inspection was conducted to
employee misconduct.                    calculate the hard drive failure rates
We made eight recommendations           for a particular brand of a laptop
that we believe will assist in          computer purchased since the end
managing the travel card program        of FY 2009. This inspection was
and strengthen its internal controls.   initiated after the Office of the
                                        Chief Information Officer noticed
We issued Inspection Report OIG-        an increase in the number of hard
INS-61-11-01, NxGen Information         drive failures.
Technology Security, on October
6, 2010. We evaluated whether           We found that 52 of the 495 laptop
NxGen is protected against both         computers purchased and installed
internal and external threats. We       since July 2009 experienced a hard
did not make the report available       drive failure. Of the 52 laptop
to the general public and limited       computers, 49 had hard drive failures
distribution of the report within the   within 1 year of installation, a failure
NLRB to those individuals with a        rate of 9.90 percent. That rate is
need to know the information.           significantly above independent
                                        research studies of hard drive
We issued Inspection Report             failures, which place the annual hard
No. OIG-INS-63-11-02, Hard              drive failure rate at 2 to 4 percent.
Drive Failures, on March 23, 2011.


                                            NLRB Semiannual report               7
We completed the Federal                1. I mplementation of the Next
Information Security                       Generation Case Management
Management Act of 2002 annual              System and seize opportunities
review of information security             to create more productive
programs. The OIG review was               and efficient procedures and
primarily accomplished as part of          organizations;
the audit of the FY 2010 financial      2. M
                                            aintain the Agency’s institutional
statements. On November 15, 2010,          knowledge;
the Chairman submitted reports
from the Inspector General and the      3. M
                                            anage the Agency’s financial
Chief Information Officer to the           resources;
Office of Management and Budget.        4. M
                                            anage the Agency’s procurement
We released Issue Alert OIG-               process to ensure compliance
IA-11-01, Top Management                   with the Federal Acquisition
and Performance Challenges,                Regulation;
on October 7, 2010. The OIG             5. S trengthen control over
developed a list of what it considers      employees’ use of Agency
to be the most serious management          information technology assets
and performance challenges                 to include Internet access; and
currently facing the NLRB.              6. I mplement audit findings in a
The challenges are:                        timely manner.

8   NLRB Semiannual report
Audit Follow-up                      five of the seven recommendations.
Agreed upon actions were not         The Agency reported that action
completed within 1 year on seven     has been completed on a sixth
audit reports.                       recommendation and they are
                                     actively working to implement
Audit of the NLRB Fiscal Year
                                     the final recommendation.
2006 Financial Statements,
OIG-F-11-07-01, was issued on        Laptop Computer Accountability
December 14, 2006, and we reached    and Security, OIG-AMR-59-09-01,
agreement with management on         was issued on February 27, 2009,
June 14, 2007. We continue to        and we reached agreement with
monitor the Agency’s progress        management on that date. The six
towards implementing the final       recommendations made in the
open recommendation.                 report have not been fully
                                     implemented. We will continue
Continuity of Operations, OIG-
                                     to monitor management’s progress
AMR-55-07-03, was issued on
                                     in implementing these
September 18, 2007, and we reached
                                     recommendations.
agreement with management on that
date. Action has been completed on   Official Time for Union
one of the three recommendations.    Activities, OIG-AMR-63, was
During this reporting period, the    issued on December 11, 2009,
Agency did not inform us of any      and we reached agreement with
action taken to implement the two    management on that date. We are
open recommendations.                evaluating information related to
                                     the implementation of one of
Audit of the NLRB Fiscal Year
                                     the four recommendations made
2007 Financial Statements,
                                     in the report. We will continue to
OIG-F-12-08-01, was issued on
                                     monitor management’s progress in
December 17, 2007, and we reached
                                     implementing the recommendations.
agreement with management
on that date. Action has been        Audit of the NLRB Fiscal Year
completed on two of the three        2009 Financial Statements, OIG-
recommendations. The Agency is       F-14-10-01, was issued on December
actively working to implement the    11, 2009. We have not reached
final recommendation.                agreement with management on
                                     a recommendation to deobligate
Office of the Chief Information
                                     $250,000 of postage advance from
Officer Procurement Functions,
                                     FY 2009 funds and re-obligate
OIG-AMR-57-08-01, was issued
                                     the postage advance using FY
on March 14, 2008, and we reached
                                     2010 funds.
agreement with management on that
date. Action has been completed on

                                         NLRB Semiannual report       9
INVESTIGATION
PROGRAM
   The Inspector General is to provide policy direction for and is to conduct,
   supervise, and coordinate investigations relating to the programs
   and operations of the Agency. The investigations resulted in counseling
   for four employees and notification to two employees of proposed
   disciplinary action.



 Case Workload      Contacts Processed
                                              allegation was not substantiated.
                                              OIG-I-447
 Open
 (4/1/2010)
               11 Received             147   • I nvestigated and substantiated
                                               an allegation that an employee
                   Initiated
 Initiated     3   Investigation
                                       1       improperly released nonpublic
                                               information. A report of
                   Opened Case —
                               ­­­
                                               misconduct was forwarded to
 Closed        3   Referred to         0
                   Agency                      Agency management. OIG-I-443
 Open              Non-Investigative         • I nvestigated and substantiated
 (9/30/2010)
               11 Disposition          146     an allegation that an employee
                                               used official resources to engage
                                               in an outside business activity.
Investigative Highlights                       Because of a lack of candor issue
• Investigated the Agency’s use of
                                               during the investigation, in a prior
   internet advertisements for its Web
                                               reporting period the matter was
   site. The matter was referred to the
                                               referred to the local U.S. Attorney’s
   OIG by the Chairman. We found
                                               Office. Prosecution was declined.
   that although the advertisements
                                               A report of misconduct was
   were not properly procured,
                                               forwarded to Agency management.
   there was no Antideficiency Act
                                               OIG-I-441
   violation. OIG-I-453
• Investigated a matter involving           Hotline
   a gift from subordinates to a             Employees and members of the
   supervisor. We found that the             public with information on fraud,

10 NLRB Semiannual report
waste, and abuse are encouraged        or walk-ins and 116 were in writing.
to contact the OIG. A log of calls     One contact resulted in the initiation
to a nationwide toll-free number       of an OIG investigation.
or the office numbers and a log of     Most Hotline contacts are from
mail, e-mail, and facsimile messages   members of the public seeking help
are maintained. All information        on an employment-related problem
received, regardless of the method     or issues outside OIG and/or
used, is referred to as Hotline        Agency jurisdiction. As appropriate,
contacts. Hotline contacts are         the OIG refers those Hotline
analyzed to determine if further       contacts to a NLRB Regional Office;
inquiry or action is warranted.        local, state, or Federal agencies;
During this reporting period, the      or private resources to provide
OIG received 147 Hotline contacts,     assistance.
of which 31 were telephone calls




                                           NLRB Semiannual report 11
LEGISLATION, REGULATIONS
AND POLICY
   The responsibilities and duties of an OIG include reviewing existing
   and proposed legislation and regulations relating to the programs and
   operations of its agency and making recommendations in the semiannual
   reports concerning the impact of such legislation or regulations on
   the economy and efficiency in the administration of programs and
   operations administered or financed by the agency or the prevention
   and detection of fraud and abuse in such programs and operations.


Legislation                             Regulations
During this reporting period, there     The Counsel to the Inspector
were four legislative proposals         General is an advisory member
introduced that would amend the         of the Agency’s Rules Revision
National Labor Relations Act and        Committee that develops changes to
impact the programs and operations      the Agency’s procedural regulations.
of the Agency:
H.R. 129, Labor Relations First
Contract Negotiations Act of 2011;
H.R. 972, Secret Ballot Protection
Act;
H.R. 1047, State Right to Vote Act;
and
S. 217, Secret Ballot Protection Act.
The impact of these proposals on
the NLRB and its programs has
been the subject of extensive debate.




12 NLRB Semiannual report
LIAISON
ACTIVITIES
   The Inspector General is to recommend policies for, and is to conduct,
   supervise, or coordinate relationships between the Agency and other
   Federal agencies, state and local governmental agencies, and non-
   governmental entities. The Inspector General is to give particular
   regard to the activities of the Comptroller General of the United States.
   Similarly, we encourage OIG staff members to participate in Agency
   programs and activities.


Inspector General                         Government
Community                                 Accountability Office
The Inspector General is a member         The IG Act states that each
of the Council of the Inspectors          Inspector General shall give
General on Integrity and Efficiency.      particular regard to the activities
This organization consists of             of the Comptroller General of
Inspectors General at the Federal         the United States, as head of
Government’s departments and              the Government Accountability
agencies.                                 Office, with a view toward avoiding
The Assistant Inspector General           duplication and ensuring effective
for Audits, or designated auditors,       coordination and cooperation.
participated in the Federal Audit         We had no activity during this
Executive Council, Financial              reporting period that required
Statement Audit Network, and the          coordination with the Government
Interagency Fraud and Risk Data           Accountability Office.
Mining Group.




                                               NLRB Semiannual report 13
INFORMATION
REQUIRED BY THE ACT
Certain information and statistics       funds could be put to better use.
based on the activities accomplished     See Tables 1 and 2.
during this period are required by       (10) There are no audit reports
section 5(a) of the IG Act to be         issued before the commencement
included in the semiannual reports.      of the reporting period for which no
These are set forth below:               management decision has been made
Section 5(a)                             by the end of the reporting period.
(1), (2), (7) OIG did not identify       (11) No significant revised
significant problems, abuses             management decisions were made
or deficiencies relating to the          during the reporting period.
administration of programs. For the
                                         (12) There are no significant
purpose of this section, we used the
                                         management decisions with which
definition of significant as set forth
                                         I am in disagreement.
in the Federal Managers’ Financial
Integrity Act.                           (13) There is no information to
                                         report under the requirements
(3) Corrective action has been
                                         of section 05(b) of the Federal
completed on all significant
                                         Financial Management Improvement
recommendations that were
                                         Act of 1996.
described in the previous
semiannual reports.                      (14) A peer review was not
                                         conducted during this reporting
(4) No cases were referred to
                                         period. A peer review of the OIG’s
prosecutorial authorities.
                                         audit program was last conducted
(5) No reports were made to the          in February 2009 by the Federal
Chairman that information or             Trade Commission’s OIG. A
assistance requested by the Inspector    copy of the peer review report is
General was unreasonably refused         at the appendix. There were no
or not provided.                         recommendations. The OIG’s
(6) A listing by subject matter is       investigative program is not subject
located on page 15.                      to the peer review requirement.
(8), (9)	 One audit report issued        (15) The OIG did not conduct a
during this period had questioned        peer review during this reporting
costs and recommendations that           period.

14 NLRB Semiannual report
AUDIT REPORTS BY
SUBJECT MATTER
                                                                  Funds To
Subject Matter           Questioned   Unsupported   Ineligible
                                                                 Be Put To
and Title                  Costs         Costs        Costs
                                                                 Better Use

General Administration
NLRB Fiscal Year 2010
Financial Statements
                         $1,042,603       0             0        $915,374
OIG-F-15-11-01

General Administration
Travel Cards                 0            0             0            0
OIG-AMR-66-11-01

Information Technology
NxGen Information
Technology Security
                             0            0             0            0
OIG-INS-61-11-01

Information Technology
Hard Drive Failures          0            0             0            0
OIG-INS-63-11-02




                                              NLRB Semiannual report 15
Table 1. Reports With                                      Dollar Value
                                       Number of
Questioned Costs                        Reports    Questioned     Unsupported
                                                     Costs           Costs
A. For which no management
  decision has been made by the           0            0                  0
  commencement of the period

B. Which were issued during
   the reporting period
                                          1        $1,042,603             0
Subtotals (A+B)                           1        $1,042,603             0
C. For which a management
  decision was made during                1        $127,229               0
  the reporting period

(i) Dollar value of disallowed costs      1        $127,229               0
(ii) Dollar value of costs not
      disallowed
                                          0            0                  0

D. For which no management
  decision has been made by the           1        $915,374               0
  end of the reporting period

Reports for which no management
decision was made within six months       0            0                  0
of issuance




16 NLRB Semiannual report
Table 2. Reports with
Recommendations that                    Number of     Funds To Be Put
                                         Reports       To Better Use
Funds be Put to Better Use
A. For which no management
   decision has been made by the           0                0
   commencement of the period

B. Which were issued during
   the reporting period
                                           1            $915,374
Subtotals (A+B)                            1            $915,374
C. For which a management
   decision was made during                0                0
   the reporting period

(i) Dollar value of recommendations
    that were agreed to by management
                                           0                0

(ii) Dollar value of recommendations
     that were not agreed to by            0                0
     management

D. For which no management
   decision has been made by the           1            $915,374
   end of the reporting period

Reports for which no management
decision was made within six months        0                0
of issuance




                                            NLRB Semiannual report 17
endix



        Appendix




        18 NLRB Semiannual report
NLRB Semiannual report 19
 Office of Inspector General
National Labor Relations Board
 1099 14th Street, NW, Suite 9820
     Washington, DC 20570


         (202) 273-1960
         (800) 736-2983
    OIGHOTLINE@nlrb.gov
       Fax (202) 273-2344
1099 14th Street, N.W.
Washington, D.C. 20570
